21-5022

I

No.

a

'i Sai '\i

Supreme Court, U.S.
FILED

JUN 2 5 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

6 .Tgtfaj

— PETITIONER

(Your Name)
vs.

ut-no.wLar
i

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UfJrfep waeh (Wrtf /Wbms fpEtue 5th Citorr
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

TgfcfgtL
(Your Name)

a42q in™ Avte. k!
(Address)

uzH Texas rmo
»

(City, State, Zip Code)

QW)^l-Z-S|q
(Phone Number)

RECEIVED
JUN 3 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

i

Questions Presented
1.

Did Terrell make a substantial preliminary showing that the omissions made by Affiant from his
warrant affidavit were recklessness by the proof of omissions itself?

2.

Did Terrell make a substantial preliminary showing that false statements knowingly and
intentionally, or with reckless disregard for the truth was included by Affiant in his warrant
affidavit?

3.

Did a Neutral and Detached Magistrate approve Terrell's probable cause affidavit?

4.

Did the state provide Terrell with a Full and Fair Franks Evidentiary Hearing in accordance with
Due Process?

5.

Was Terrell's 4th Amendment claims meritorious?

6.

Was defense counsel's combination of Terrell's 4th Amendment claims at the suppression
hearing litigated competently? If so, was Terrell prejudiced by defense counsel's incompetence?

7.

Was defense counsel's failure to impeach Affiant with his warrant affidavit deficient
performance? If so, was Terrell prejudiced by defense counsel's incompetence?

8.

Was defense counsel's failure to investigate Terrell's case deficient performance? If so, was
Terrell prejudiced by defense counsel's incompetence?

9.

Was the deliberate/negligent concealment by the state of the third officer whose testimony,
when evaluated in the context of the entire record, violate Terrell's Due Process?

10. Did Terrell demonstrate a colorable need for the third officer to testify to events that he had
personally observed, and whose testimony would have been relevant and material to the
defense? If so, was Terrell prejudiced by the state's failure to compulsory process of this
witness?

11. Did the State knowingly and intentionally use false testimony? Was the false testimony
material?

12. Was Terrell's appellate counsel's performance deficient? If so, was Terrell prejudiced by their
incompetence?

List of Parties

All parties appear in the caption of the case on the cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:

Related Cases
1. Sheron Terrell v. The State of Texas, cause no. 11CR1752,56th District Court,
2.
3.
4.
5.
6.
7.

Judgment:3/29/2012
Sheron Terrell v. The State of Texas, cause no. 01-12-00404-CR, 1st District Court of Appeals,
J u dgm e nt:1/07/2014
Sheron Terrell v. The State of Texas, Petiton for Discretionary Review, Court of Criminal Appeals,
Judgment:ll/19/2014
Sheron Terrell v. The State of Texas, cause no. 11CR1752-83-1, Court of Criminal Appeals,
Judgment:6/25/2014
Sheron Terrell v. The State of Texas, cause no. 11CR1752-83-2, Court of Criminal Appeals,
Judgment:6/22/2016
Sheron Terrell v. The State of Texas, cause no. 3:16-CV-179, United States District Court,
Southern District of Texas, Judgment:7/01/2019
Sheron Terrell v. The State of Texas, cause no. 19-40678, United States Court of Appeals for the
5th Circuit, Judgment:l/262021

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B Uniter

Wft.

APPENDIX C T6XHS Oou^T Pf

Kb. '2:\fc^ Ocl
UiUftC/IffeftCS f QA$e A&- HCf f7SZ-85'2.

APPENDIX D 7^ t^4r 6F C^wvUtOflC Afl%7tfS j CASe ^ llPphlS^^l

APPENDIX E

‘TQo<5

Op

feU&A7^ fbp

ifevllew

APPENDIX F

Afft^0v>0^ ^ 0Sf.

, C^Ser/u&, UC£/7S2-

Table of Authorities Cited
Cases:
Franks v. Delaware, 438 US 154 (1978)
United States v. Thompson, 615 F2d 329 (5th Circuit 1980)
Hale v. Fish, 899 F2d 390 (5th Circuit 1990)

1, 5, 6,10,13,17
1,10
1

United States v. Thomas, 489 F2d 664 (5th Circuit 1973)

1,4

Ward v. Whitely v. 21 F3d 1355,1367 (5th Circuit 1994)

6,19

Blackledge v. Allison, 431 US 63 (1977)

6,19

Schriro v. Landrigan, 550 US 465 (2007)

6,7

Me Donald v. Johnson, 139 F3d 1056 (5th Circuit 1998)

6

United States v. Cervantes, 132 F3d 1106 (5th Circuit 1998)

6

Hall v. Quaterman, 534 F3d 3665 (5th Circuit 2008)

7

Clark v. Johnson, 202 F3d 760 (5th Circuit 2000)

7

Moaward v. Anderson, 143 F3d 942 (5th Circuit 1998)

7

Strickland v. Washington, 466 US 668 (1984)
Williams v. Taylor, 529 US 362,413 (2000)

10,11,12, 15, 25, 27, 29
5,10,15

Nealy Cabana, 764 F2d 1173 (5th Circuit 1985)

12

Bryant v. Scott, 28 F3d 1411 (5th Circuit 1994)

12

United States v. Drones, 218 F3d 496 (5th Circuit 2000)

12, 26

United States v. Green, 882 F2d 999 (5th Circuit 1989)

12

Kyles v. Whitely, 514 US 419 (1995)

13

Shadwich v. City of Tampa, 407 US 345 (1972)
Johnson v. United States, 333 US 10 (1948)
Jones v. United States, 362 US 257 (1960)

16, 28
17
17,18

Giordenllo v. United States, 357 US 480 (1958)

17

Gertain v. Pugh, 420 US 103 (1975)

17

United States v. Phillips, 727 F2d 392 (5th Circuit 1984)

17

Illinois v. Gates, 462 US 213 (1983)

17

United States v. Jackson, 818 F2d 354 (5th Circuit 1987)

18

Coolidge v. New Hampshire, 403 US 443 (1971)

18

Nathanson v. United States, 290 US 41 (1933)

18

Aguilar v. Texas, 378 US 108 (1964)

10,18

Washington v. Texas, 388 US 14 (1967)

20

Ashley v. Wainwright, 639 F2d 258 (5th Circuit 1981)

20

United States v. Agurs, 427 US 97 (1976)

20,23

Kyles v. Whitley, 514 US 419 (1995)

21

Clark v. Blackburn, 632 F2d 531 (5th Circuit 1980)

16

Freeman v. Georgia, 599 F2d 65 (5th Circuit 1979)

16

Lockett v. Blackburn, 571 F2d 309 (5th Circuit 1978)

16

United States v. O'Keefe, 128 F3d 885 (5th Circuit 1997)

22

Napue v. Illinois, 360 US 264 (1959)

22

Unites States v. Blackburn, 9 F3d (5th Circuit 1993)

23

Mooney v. Holohan, 294 US 103 (1935)

23

Kotteakos v. United States, 328 US 750 (1946)
Harrington v. Richter, 562 US 86 (2011)

21, 25
5

Cullen v. Pinholster, 131SCT. 1388 (2011)
Townsand v. Sain, 372 US 293 (1963)
Slack v. McDaniel, 529 US 473,483-84 (2000)

7

7,16, 20, 22, 24

United States v. Bagley, 473 US 667 (1985)

11,21

Kimmelson v. Morrison, 477 US 365 (1986)

11,19

Brady v. Maryland, 373 US 365 (1986)

21, 23

Brecht v. Abrahamson, 507 US 619 (1993)

21

Evitts v. Lucey, 469 US 387 (1985)

29

Statutes and Rules:
28 USCS 2254 (c)

7,16, 20, 24

28 USC S 2254 (d) (1)

6,15,16,19

28 USC S 2254 (d) (2)

6,19

28 USCS 2254(e)(1)

2, 3, 5, 7,16,18, 20, 24

28 USC S 2254 (e) (2)

6

28 USC S 2254 (f)

18

Rule 6

6,19

Rule 8

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

i

to the petition and is

[ ] reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

JURISDICTION
^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was v~T/Vi\JUA''£>'f oUg .

\

^(j No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ___
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4"°^
^rvcaOt^M^JT

Statement of the Case
On June 18,2011, Terrell was detained under the authority of a warrantless arrest by Galveston
Police officer Hassain Mustafa. Thereafter, Terrell retained his right to a court appointed attorney. On
June 22, 2011, Attorney Robert G. Coltzer was appointed to represent Terrell. On July 14, 2011, an
indictment was returned by the Grand Jury. Terrell was true billed for possession of a controlled
substance > 4 grams with two enhancements and a 60,000 bond. Shortly thereafter, Terrell received a
copy of his Affidavit for Warrant of Arrest and Complaint and noticed that his warrant affidavit had been
procured by material and knowing misstatements of fact, in addition, the face of the warrant affidavit
lacked a probable cause determination.
On September 16, 2011, Terrell filed a motion to dismiss on the basis of an illegal charging
instrument and a motion to suppress evidence that the warrant affidavit contained deliberate
falsehoods; in addition to, the illegal execution thereof, pro se. On November 1,2011, Terrell also filed a
motion for a Franks Evidentiary Hearing and Brief in support of the investigation detention and arrest
pro se.
On November 18, 2011, the 56th District Court held Terrell's third disposition. However, when
Terrell entered the courtroom trial counsel privately expressed to Terrell that he wasn't pleased with
Terrell filing pro se motions to the court. Trial counsel told Terrell to 'stop filing pro se motions or he
wouldn't be able to help Terrell's situation. Thereafter, a short hearing was held with Judge Lonnie Cox
presiding over the hearing. The hearing was concerning the pro se motions Terrell had previous filed in
the court. Trial counsel, Terrell, and District Attorney Jon Hall discussed the matter with the court.
At this hearing, Judge Lonnie Cox implicitly denied Terrell's pro se motions by stating: Terrel!
because you were arrested on the street, a warrantless arrest, you are not entitled to a Franks
Evidentiary Hearing. Franks Evidentiary Hearings are only for search warrants. In addition, trial counsel
stated on the record, he will be filing his own motion to suppress evidence in the future. (Terrell has eTnailed court reporter Dale Lee on numerous occasions to obtain transcripts of this hearing, However, he
has not responded.)
On November 18, 2011, the court set trial counsel's motion to suppress evidence to be heard on

REASONS FOR GRANTING THE PETITION

lepfetL Serifs
Wtm 1He $me <Uru#& veufc&pfe
^C^VUVVGI^ST of 1H6 T-WH) oFfi(Le£ Oot teLLuoe \Mvw
y_^^E7^6i) pyO THg
of- "CH€ vmcx^etvJT'teff^LL 5*sgpS A- FmF ttevfuvK iw
(Lrujfc To
gy,P09e THe Ff^ovjf^ ffrtS^ttocPS ^ AFTtAtJT
T^feLL
ATMb vAJTO-UrvOT me \Ujt&%c{
tyIH/FCe\tefc W O^T pg«»vS <3vSC.

Franks Evidentiary Hearing
In Franks v. Delaware, 438 US 154,98 SCT. 2674, 57 Led 2d 667 (1978), the Supreme Court held
that if an officer, in an affidavit supporting a warrant, makes a false statement knowingly and
intentionally, or with reckless disregard for the truth, the false statements must be disregarded in the
determining whether the affidavit is sufficient to support probable cause. Id at 171-72.
Where a defendant makes a substantial preliminary showing that a false statement knowingly
and intentionally, or with reckless disregard for the truth, was included by an affiant in the warrant
affidavit, and if the allegedly false statement is necessary to the finding of probable cause, U.S. Const,
amend IV and IVX requires that a hearing be held at the defendant's request; so that he may challenge
the truthfulness of the factual statements made in the warrant affidavit. In the event that at the hearing
the allegation of perjury or reckless disregard is established by the defendant by a preponderance of
the evidence, and, with the affidavit's false material set to one side, the affidavit's remaining content is
insufficient to establish probable cause, the warrant must be voided and the fruits of the arrest
excluded to the same extent as if probable cause was lacking on the face of the affidavit. Id at 155-156.
The holding in Franks applies to omissions as well. If the facts omitted from an affidavit are
"clearly critical" to a finding of probable cause, then recklessness may be inferred from the proof of the
omission itself. United States v. Thompson, 615 F2d 329 (5th Cir. 1980) (quoting Hale v. Fish, 899 F2d at
400). The Federal Courts of Appeals decisions allowing a defendant to challenge the veracity of a
warrant affidavit rest on a constitutional footing. See United States vs. Thomas, 489 F2d 664, 668, 671
(5th Cir. 1973), cert, denied, 423 U.S. 844 (1975).
Parti
Terrell developed in the state court record that his warrant affidavit was procured with
known falsehoods and a disregard for the truth. Terrell in his state criminal prosecution made a
challenge to the veracity of his warrant affidavit in a motion to suppress; and motion for Franks
Evidentiary Hearing and Brief in Support, pro se, filed months prior to his trial. Terrell's motions stated
the grounds upon which they were made as set by the standards of the United States Supreme Court.

L

Terrell offered as proof in his pro se motion- there is no possibility of Affiant seeing Terrell walk
away from a hand to hand transaction, run around a parked car, and throw something. In spite of the
fact that Affiant nearly hit Terrell but kept traveling east on avenue K away from Terrell's specified
location. Affiant circled 3 34 blocks to come back to Terrell's location, as Terrell continued to walk
southbound on 27th street.
Terrell presented oral testimony: "when the Affiant turned south from the 1000 block of 27th
street (27th street and avenue J) Terrell was located at the southeast corner of the 1100 block of 27th
street (27th street and avenue K)". Affiant's warrant affidavit clearly has affiant and Terrell documented
at these specific locations. See: arrest warrant affidavit #2; 28 USC § 2254 (e){l).
R.R. Vol. 2, page 41.
Affiant's warrant affidavit states :(2) "Affiant was patrolling the area of 1000 block of 27th street.
Affiant observed a male black known to Affiant as Sheron Terrell and an unknown white male doing a
hand to hand transaction on the east corner of 2700 avenue K". It is clear and convincing evidence that
when Affiant claims to had seen Terrell make a hand to hand transaction, Affiant was one block north of
Terrell, as Affiant turned south towards Terrell's location. 28 USC§ 2254 (e)(1).
Terrell added further testimony: "the Affiant's patrol car lost control at the southeast corner of
27th street and avenue. K, as it bounced against the curb and almost hit Terrell and the unknown
pedestrian. However, Affiant served off the curb and kept driving east on avenue. K- going to 26th street.
Affiant had to circle 3 34 blocks in order to come back to Terrell's location on 27th street; in which Terrell
had now walked 34 block south on 27th street". It is clear and convincing evidence, if Terrell would have
made a drug deal in front of Affiant, Affiant would not have been able to travel 3 34 blocks away from
Terrell's location and still find Terrell walking southbound on 27th street of only % block. 28 USC £
2254(e)(1).
R.R. Vol 2, page 42-43.
Affiant clearly documented in his warrant affidavit: (3) "Affiant turned around and observed
Terrell quickly starting walking southbound on 27th street". It is clear and convincing evidence that
Affiant was going south from 27th street and avenue J to Terrell's specific location on 27th street and
avenue K. However, Affiant's statement that he "turned around and observed Terrell walking
southbound on 27th street from avenue K", is clear and convincing that Affiant did pass Terrell's location

on 27th street and avenue K, and circled around the block to meet Terrell once again on 27th street. 28
USC^2254 (e)(1).
Affiant's false testimony at Terrell's motion to suppress hearing: "Affiant was parked east on
avenue K, mid-block between 26th-27th street, standing beside his patrol car. When Affiant observed
Terrell and the unknown white male make a hand to hand transaction on the northeast corner
intersection of 27th street and avenue. K. Thereafter, Terrell walked south up 27th street and the
unknown white male walked in a different direction. Affiant then entered his patrol car and turned
around, making a U-turn on avenue. K- now going west on avenue. K. When Affiant approached the
intersection of 27th street and avenue K, Affiant turned left, now driving south on 27th street to follow
Terrell".
R.RVol. 2, page 6,15-22.

It is clear and convincing evidence, Affiant was going south on 27th street and avenue J as Terrell
eventually started walking southbound on 27th street. However, it's impossible for Terrell and the
unknown white male to have been at the north east intersection of 27th street and avenue K, making a
hand transaction, with Affiant being located at 1000 block of 27th street. Thereafter, Affiant testified his
patrol car was facing north on 27th street, when he stopped Terrell. Which is the opposite direction of
Affiant following Terrell southbound but only proves that Affiant approached Terrell driving north on
27th street; coming from the other direction. Terrell established proof that the omissions made by
Affiant's false testimony were clearly critical to probable cause. Affiant's false testimony was material
because it was contrary to the location Affiant actually documented in his arrest warrant affidavit. 28
USC^ 2254(e)(1).
Affiant presented in the state court record, critical information that was omitted in his warrant
affidavit. This omitted information is clearly critical to, where was Affiant located when he supposedly
observed a hand to hand transaction? And, omits any information of Affiant being parked, standing
outside of his patrol car at that specific location. Affiant's affidavit only documented "Affiant patrolling
the area of 1000 block of 27th street" (or, 27th street and avenue J). Which Affiant failed to mention one
time in his testimony at the hearing. 28 USC£ 2254 (e)(1).
The holding in Franks applies to omissions as well. If the facts omitted from an affidavit are

3

"clearly critical" to a finding of probable cause, then recklessness may be inferred from the proof of the
omission itself. United States v. Thompson, 615 F2d. 329 (5th Circuit 1980).
2 part
In addition, Terrell offered as proof in his pro se motion- the Affiant states that he found a
plastic bag containing "beige rocks" four feet from where he detained Terrell when in fact they were
found 15-20 minutes after Terrell was detained by an unknown third officer who came to the scene of
the detention.
Terrell added further testimony: As Terrell crossed over the alley-way on the west side of 27th
street- walking south, Terrell saw the same patrol car from an open field on the northeast corner of 27th
street and avenue L- making the block. Therefore, Terrell got off the sidewalk and begin walking on the
drive-way pavement of a funeral home. The patrol car ran the stop sign on 27th street and avenue Lturning north.
R.R. Vol, 2, page 44-45.
The patrol car quickly drove to the northwest side of 27th street from avenue L and then
slammed on its breaks at the curb. Thereafter, officer H. Mustafa stepped out of his patrol car, pointed
his tazor at Terrell, and hollered at Terrell," get on the ground" several times. Terrell complied with
officer Mustafa's orders. Officer Mustafa then fell on Terrell's back with his knee and put handcuffs on
Terrell. Thereafter, officer Mustafa grabbed Terrell off the ground, frisked him, and accused Terrell of
selling drugs to the pedestrian Terrell passed on the previous corner. In addition, officer Mustafa
obtained Terrell's name and information and called in Terrell to dispatch for any warrants.
After Terrell had been detained for about five minutes, Sergeant Andre Mithcell arrived at the
scene. Sgt. Mitchell took Terrell while officer Mustafa searched the immediate area and waited on
Terrell's status for any warrants. Around five minutes afterwards, we all witnessed a motorcycle crash
into a ditch at the northeast corner of 27th street and avenue M. Therefore, Sgt. Mitchell quickly
dispatched for medical assistance via using his hand held radio. About five minutes afterwards, a small
firetruck arrived at our location. However, once a paramedic exited the firetruck, he was briefed about
the incident by Sgt. Mitchell and then left en route to the accident up the street.
Several minutes after the fire truck left, a third patrol car came from a southern direction up 27th
street. However, upon that officer walking up to the area where we were located, the unknown third

*/•

officer showed officer Mustafa an object of some sort he had in his hands. The unknown third officer
told officer Mustafa, he found the object on the ground after he exited his patrol car. Thereafter, officer
Mustafa took the object, went to the trunk of his patrol car and tested the object. After the object
tested positive for cocaine, officer Mustafa transferred Terrell to the Galveston County Jail.
Terrell was detained for 15-20 minutes before an unknown third officer arrived at the location.
However, upon the third officer walking up to the area where we were located, the third officer showed
H. Mustafa an object he had in his hands. The unknown third officer said, he found the object on the
ground after he exited his patrol car. Thereafter H. Mustafa took the object from the third officer and
wrote false statements in his affidavit knowingly and intentionally, or with reckless disregard for the
truth.
R.R. Vol.2 page 38-48.
Affiant warrant affidavit States: (4) Affiant observed that Sheron Terrell raised his arm and
threw a small object out of his right hand...Affiant walked back approximately four feet where Affiant
observed Sheron Terrell raising his arm up and throwing an object on the ground. (5) Affiant observed a
small clear plastic bag containing two small beige rocks.
Terrell demonstrated a substantial preliminary showing and if the clearly critical omissions made
at #2 of Affiant's warrant affidavit; in addition to, the known falsehoods and disregard for the truth
made at #4 and #5 of Affiant's warrant affidavit were necessary to a probable cause finding, the 4th and
14th Amendments requires that a Franks Evidentiary Hearing be held at Terrell's request. Franks v.
Delaware, 438 US at 155. In Terrell's State Habeas Court proceedings, his Franks claim was not
adjudicated on the merits. However, there was no reasonable basis for the state court to deny relief.
Harrington v. Richter, 562 US 86 (2011); 28 USC§ 2254 (e)(1).
Terrell diligently developed the factual basis of his Franks claim in state court. Terrell made a
prima facie showing of what specifically he intended to prove. It is clear and convincing evidence, Terrell
established a factual dispute alleging that the unknown third officer found the contraband 15-20
minutes after Terrell had been detained creating a challenge to the false statements made in Affiant's
warrant affidavit. However, the State Habeas Court denial of Terrell's request for a Full and Fair Franks
Evidentiary Hearing was contrary to, or involved an unreasonable application of clearly established
federal law as determined by the Supreme Court in Franks v. Delaware. See: William v. Taylor, 529 US

5.

362,413 (2000); 28 USC § 2254 (d)(1). In addition, the state's fact-finding procedures which lead up to
the state court's summary denial of Habeas relief "resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the state court
proceeding" (d)(2).
When there is a "factual dispute, that, if resolved in petitioner's favor, would entitle him to relief
and the state has not afforded the petitioner a full and fair hearing," a federal habeas court petitioner is
entitled to discovery and an evidentiary hearing. Ward v. Whitely, 21 F3d. 1355,1367 (5th Circuit 1994),
cert denied, -- US

115 SCT. 1257, 131 Led 2d 137 (1995). However, the discovery and evidentiary

hearing are limited to the factual dispute; the court has made clear that 28 USC S 2254, rule 6, "does not
authorize fishing expeditions". Ward, 21 F3d. at 1367. A Habeas Petitioner must make specific
allegations, "conclusory allegations unsupported by specifics," or "contentions that in the face of the
record are wholly incredible" will not entitle one to discovery or a hearing. Blacklegde v. Allison, 431 US
63, 74, 97 SCT. 1621,1629, 52 Led 2d 136 (1977); Franks v. Delaware, 438 US 154,98 SCT. 2674,57 Led
2d 667(1978).
Terrell alleged that false statements knowingly and intentionally, or with reckless disregard for
the truth, was included by Affiant in the warrant affidavit. And, with Affiant's false material set to one
side, the affidavits remaining content would be factually insufficient to establish probable cause; that
was also legally insufficient because it failed to be confirmed by a neutral and detached magistrate. The
arrest warrant should have been void and the fruits of the illegal search and seizure (the crack cocaine),
excluded as a result. See: 28 USC S 2254 (e)(2) (requiring an applicant to show, inter alia, that "the facts
underlying the claim would be sufficient to establish by clear and convincing evidence that but for
constitutional error, no factfinder would have found the applicant guilty of the underlying offense" only
if "the applicant has failed to develop the factual basis of a claim in state court proceedings").
Section 2254(e)(2) of the United States Code Title 28 did not constrain the District Court's
discretion because Terrell diligently developed the factual basis of his claim in state court. Schriro v.
Landrigan, 550 US 465,127 SCT 1933,1937,167 LED 2d 836 (2007) ("In cases where an applicant for
federal habeas relief is not barred from obtaining an evidentiary hearing by 28 U.S.C. 12254(e)(2), the
decision to grant such a hearing rests in the discretion of the district court.") McDonald v. Johnson, 139
F3d 1056,1059 (5th Circuit 1998) (citing United States v. Cervantes, 132 F3d 1106,1110 (5th Circuit

if.

1998)) ("Denials of an evidentiary hearing are reviewed for an abuse of discretion").
In determining whether to grant a hearing, under Rule 8(a) of the habeas Court Rules "the judge
must review the answer and any transcripts and records of state-court proceedings...to determine
whether an evidentiary hearing is warranted". Schriro, 127 SCT at 1939. Cullen v. Pinholster, 131SCT.
1388 (2011) (state court record includes everything that was presented to the state court. And, the
Supreme Court has held since AEDPA that the court must also "consider whether such a hearing could
enable an applicant to prove the petition's factual allegations, which, if true, would entitle the applicant
to federal habeas relief. Because the deferential standards prescribed by ^2254 control whether to
grant habeas relief, a federal court must take into account those standards in deciding whether an
evidentiary hearing is appropriate". Id. At 1940. (citing Hall v. Quarterman, 534 F3d 365, 368 (5th Circuit
2008); Townsend v. Sain, 372 US 293 (1963).
The District Court abused its discretion in not holding an evidentiary hearing because the state
court failed to provide a full and fair hearing. Clark v. Johnson, 202 F3d 760, 766 (5th Circuit 2000) (citing
Moaward v. Anderson, 143 F3d 942,948 (5th Circuit 1998)) ("To find an abuse of discretion which would
entitle... petitioner to discovery and an evidentiary hearing to prove his contentions, we would
necessarily have to find that the state did not provide him with a full and fair hearing...") Although
Terrell did have a state court hearing before his trial date, the hearing was not a full and fair Franks
Evidentiary Hearing due to the ineffective assistance of counsel, among other things.
The 5th Circuit COA assessment that Terrell has not shown that reasonable jurists would find the
District Court's application of Stone was debatable or wrong, are wrong by clear and convincing
evidence. Terrell made a substantial preliminary showing that his Due Process was violated when his
request for a Franks Evidentiary Hearing was misgoverned at Terrell's suppression hearing and on State
Habeas application. The 5th Circuit COA erred when it failed to decide that the District Court abused its
discretion in not conducting a Franks Evidentiary Hearing because Terrell shown that his petition should
have been resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further. Slack v. McDaniel, 529 US 473,483-84 (200); 28 USC ^2254
(c);(e)(l).

1.

Ineffective Assistance of Counsel
Failed to litigate an 4th Amendment claims competently
Motion to Suppress Hearing
The court began the hearing by asking trial counsel: Will Terrell's motion to suppress evidence,
pro se; and his own motion to suppress evidence, be consolidated at the hearing? Trial counsel replied,
yes sir. There was no objection from the state. The state called officer Hassian Mustafa as its first
witness.
R.R. Volume 2, page 5.

H. Mustafa direct testimony by Jon Hall
On the night of June 18, 2011, Affiant was parked east on avenue K., mid-block between 26th
and 27th street. Affiant was standing beside his patrol car in the street, about thirty feet from the
intersection of 27th street and avenue K. (Jon Hall's courtroom distance example). When Affiant
observed Terrell and an unknown white male make a hand to hand transaction on the northeast
intersection of 27th street and avenue K. Thereafter, Terrell walked south up 27th street and the
unknown white male walked in a different direction.
R.R. Vol. 2, page 6.
Affiant got in his patrol car and turned around, making a U-turn, now going west on avenue K.
When Affiant approached the intersection of 27th street and avenue K, Affiant turned left driving south
up 27th street to follow Terrell. Affiant got out his patrol car and said to Terrell, "hey come here"! That's
when Terrell got behind a parked car in front of the apartments on the sidewalk at the northwest corner
of 27th street and avenue K and threw something out of his right hand.
R.R. Vol. 2, page 15-22.

H. Mustafa cross examination by Robert Coltzer
Q. When you were out there and your car was stopped?
A. Yes, sir.
Q. You were on avenue K on the eastside of 27th street?

S.

A. Yes, sir.
Q. Were you in about the middle of the block, the block between 26th and 27th street?
A. Approximately.
Q. The middle of the block would be about 150 feet?
A. Yes, sir.
Q. Were the two men on the north side of the street or the south side?
A. Northeast corner.
Q. What was different about their hand movements?
A. It was really quick- the other reason was they both were just- like they don't really know each other.
They just met at the corner. They are looking around the whole time and they are exchanging whatever
is in their hands.
Q. Now when you got in your car, you said you had to turn around?
A. Yes, sir.
Q. Now did you make a U-turn there on avenue K?
A. I think. I don't really remember.
Q. Or, did you go around the block?
A. No, sir.
Q. When you stopped him, were y'all next to the apartments?
A. We were right by it-yes.
Q. Where was the car parked that you say he ran between?
A. It was on the sidewalk in front of the apartments.
Q. When you stopped your car, which direction was your car parked?
A. North.
Q. Was your car facing south?
A. As best I remember it was facing north.
R.R.Vol.2, page 25-30.

Failed to object to false or misleading testimony and properly
impeach key government witness with warrant affidavit

When the state offered into evidence Affiant's testimony: "Affiant was parked mid-block
between 26th-27th street on avenue K, standing beside his patrol car". Trial counsel was deficient when
he failed to object to the false testimony of Affiant and present the warrant affidavit into evidence and
show that Affiant's arrest warrant affidavit stated he was located at the 1000 block of 27th street, when
he first observed Terrell; not parked mid-block between 26th-27th street on avenue K, standing beside his
patrol car. Agurs, 427 US at 112-113, n.21,96 SCT. At 2401-2402, n.21 (the effective impeachment of
one eyewitness can call for a new trial...).
Trial counsel's consolidation of both motions at the suppression hearing proved deficient
performance. Trial counsel acted objectively unreasonable by failing to impeach Affiant with his warrant
affidavit and ask Affiant to explain, why was his initial testimony omitted from his warrant affidavit?
When trial counsel knew Affiant changed his statement from being located at 1000 block of 27th street
to being parked mid-block between 26th- 27th street and avenue K, standing beside his patrol car. Which
is a total of over 450 feet from where his warrant affidavit stated he was located. Trial counsel's
performance was deficient under "prevailing professional norms" when he failed to attack Affiant's
credibility by stating the omissions were proof of Affiant's recklessness and disregard for the truth.
Strickland, 466 US at 687, 690; Franks supra.
Trial counsel's deficient performance prejudiced Terrell because had counsel objected to the
deliberate deception of the court and proved his contentions by submitting the warrant affidavit into
evidence, trial counsel would have established that the omissions made by Affiant were reckless by the
proof of the omission itself. United States v. Thompson, 615 F2d 329 (5th Circuit 1980). It is reasonably
probable had counsel objected to the aggravated perjury of Affiant and impeached Affiant with his
warrant affidavit, the false information would have been incredible. A reasonable probability is a
probability sufficient to undermine confidence in the outcome of the proceedings. See: Williams, 529 US
at 391; Strickland, 466 US at 694.
However, in Terrell's State Habeas proceedings, trial counsel neglected to answer in his affidavit
and the State Habeas Court failed to make any findings concerning the issue of, why he failed to object
or impeach Affiant with his warrant affidavit?
Furthermore, the district court's assessment that trial counsel's 'litigation of 4th amendment
issues' were effective assistance of counsel are wrong by clear and convincing evidence. First, Terrell

Iq,

:Vy ;.>•

jt-

i.

,V.

•r;-vv

■l

-L

■

>'S

i"

•j'-Tv

■i:

r-r-

, .*• ■

. \

\ "•

k

*ev
A
•A

y
r;’

ts •

A

Jbj.'yvby Ayy*- ;An: h./
' .v •
■ - b •pA-yXifAb v*- i.
.'.r'

"V,'

/j .. *

+ . *

'« -

:'J '-Ci­

c. :

X

- >.bV

V-y

■ >*

■ '■ V

r*n *.

>V

X-

tT’,

■■

'.-7

.> *

. bS' *
v.
■1-V

X

A

*« ;bv-\

•« a;**

a

i

*2 ,%frtfOvAbv "Ai-t'V

A

‘X-

• i r.

AAVvAXl'
t *. *

><

;

. i .*

•*>

bb , :

U>

■ L.:. /

:v

;*
<<

? '

Vv-I

•i-

y i j.-..

,~t ■ «

r;. .^■*us!XU v ; -

^v^rX;b

•

; ;^ k

: • •; ' <

<V

*. ^ >*

.* •

5

) *,

!-

.-V ' !<:5'

fy

■h

n.

1

.V

■t ‘

'

-!:A

x^tv;

»

;

\0&

...'■■Sr.i

f

'5 .

* VS

•

.-.Ci'.i-. 5

'•

:>V/J

•.ft.v-i ifr- ■

>iV

'i-

.V

* Vv"

•" n

. .i

■V'.b

<•

■; A-b A

*

•-VA"

.r

,;A- A‘.v

-.U-

-

-jf

li

■:

A

(-

-..x:

■ .V-.-

) *\ • '

S

V* 1 ■4

r.

;■

::-r- ^:-

^•v •* ..

i ■

?-X

<

i

•-

•iO‘.4-y:v

r-

,v>-

■'

V-'

.’fyX

• 1,-

j

X-

.

iV

b: .:;

s.

r

;

.

/h

' t >• • •

:ss

*/.' .

A

>

'/*

•X

x-:
.y
..

;

-4 t>

,f V

sC‘

x.b

‘ i

v;.;

..Vi

:■ r

;<

Ab*;.c, • -

..v.

,£'1 . ;»

"-A

■v

■i't-

'i; .r

a

■!

■

;

*•

,

••j

!•

\

x.

;rx-

.

V

, \

•^

?.

'-S

y-:

■K

■:■

Y

»<

5*

v

V,

A-

■-!

• - v•

'■«;

n:

i^-r

•A -

X.

c

;

. s *:

% :•

c■

• £

s'y.

r:

T

i.

V.

** \
-A-

H

:V.

; :..

;
*.'•

(■•

r

i

■-C-

■u

r--''

a

?

^

t

j>*C.

!-■

■

i

■ ■:

> • i;y>'

*"7 '

&&

>

•V

;*

•s •

■i.'1

-*

j-

•b .

■

,x-

■1:

!'• ,

.;v

•A:

j

•■‘X-

-i. .rv-. s •

•s

. '7

A

t*.

i

<n.

—

:-«r- .- v.

r-

>;H...

i,

• •»

V'-

:.x

suppression hearing was intentionally behind schedule on several different occasions until trial counsel
eventually filed a motion to suppress evidence (search without warrant). However, the motion was
frivolous and out of context concerning Terrell's specific situation. Terrell had a suppression hearing one
business day before his trial. But, the cross examination by trial counsel of Affiant was mediocre and
didn't adequately attack Affiant's credibility as it related to a challenge to his veracity. This tactic was
not strategic but was due to his complete incompetence to bring to bear such skill and knowledge
necessary to accord Terrell the ample opportunity to meet the case of the prosecution to which they are
entitled. Strickland, 466 US at 685.
Finally, the District Court's assessment to Terrell's claim of trial counsel's IAC for failing to
impeach Affiant with his warrant affidavit, is wrong by clear and convincing evidence. Trial counsel failed
to disclose favorable evidence that conflicted with Affiant's testimony. Favorable evidence is that which,
if disclosed and used effectively, "may make the difference between conviction and acquittal". United
States v. Bagley, 473 US 667 (1985). Impeachment evidence is that which disputes, disparages, denies or
contradicts other evidence. The District Court favors trial counsel's cross examination of Affiant, but
overlooks his failure to impeach Affiant which is clearly erroneous under the circumstances.
It is clearly established federal law in Strickland v Washington, 466 US 668, 687 (1984) that
counsel's role in the proceeding is comparable to counsel's role at trial- to ensure that the adversarial
testing process works to produce a just result under standards governing decisions. Therefore, counsel's
function is to assist the defendant, so he has a duty to advocate the defendant's cause at 688. Trial
counsel's failure to object and impeach Affiant as it related to his initial location in his warrant affidavit
versus his false testimony of being parked, standing beside his patrol car, etc. was deficient performance
without producing the warrant affidavit into evidence. Trial counsel did not properly object to the false
testimony because if he did it would have been properly preserved on the record. Kimmelman v.
Morrison, 477 US 365 (1986).
The 5th Circuit COA assessment that Terrell has not shown that reasonable jurists would find the
District Court's deference to the State Court's rejection of Terrell's claim of counsel failing to object or
impeach Affiant was debatable or wrong, are wrong by clear and convincing evidence. Terrell made a
substantial preliminary showing that Affiant's false testimony was omitted from Affiant's warrant
affidavit. The 5th Circuit COA has ruled, 'recklessness may be inferred from the proof of the omission

H.

itself. Counsel's negligence to argue the substance of Terrell's pro se motion was deficient performance
which caused prejudice to Terrell's Franks Evidentiary challenge. There is a reasonable probability had
counsel objected and impeached the false testimony that was material to the states probable cause
argument the result of the suppression hearing would have been different.

Failed to investigate unknown third officer or present a defense
To render Effective Assistance, "counsel has duty to interview potential witnesses and to make a
reasonable investigation of the facts and circumstances of the case; or to make a reasonable decision
that a particular to investigation is unnecessary". Nealy v. Cabana, 764 F2d 1173,1177 (5th Circuit 1985);
Bryant v. Scott, 28 F3d 1411,1419 (5th Circuit 1994). The information Terrell provided to counsel about
the incident was the controlling factor of counsel's decision to or not to investigate. Strickland v.
Washington, 466 US 668,691 (1984).
However, counsel limited his pretrial investigation to only discussions with Terrell, review of the
indictment, examination of the prosecution's file, reading the police report, and taken several pictures
of 27th street. Courts recognize that "ineffectiveness is generally clear in context of a complete failure to
investigate because counsel can hardly be said to have made a strategic choice against pursuing a
certain line of investigation when he has not yet obtained the facts on which such decision could be
made" (citing Strickland, 466 US at 690-91). Strickland simply "does not require... deference to decisions
that are uninformed by an adequate investigation into the controlling facts and law" United States v.
Drones, 218 F3d 496,500 (5th Circuit 2000).
In order to establish that counsel was ineffective due to a failure to investigate the case or to
discover and present evidence, Terrell must do more than merely allege a failure to investigate. Terrell
must state with specificity what the investigation would have revealed? What specific evidence would
have been disclosed? And, how the evidence would have altered the outcome of the proceedings.
United States v. Green, 882 F2d 999,1003 (5th Circuit 1989).
Terrell did more than merely alleged counsel's failure to investigate
Terrell stated specifically what the investigation would have revealed? If counsel would have

ia.

interviewed and investigated the unknown third officer, it would have revealed that H. Mustafa did not
walk back approximately 4 feet and find a small clear plastic bag containing beige rocks minutes after
Terrell's initial detention.
What specific evidence would have been disclosed? The unknown third officer would have presented
evidence that he found the small clear plastic bag when he exited his patrol car, 15-20 minutes after
Terrell had been detained and gave it to officer Mustafa.
How the evidence would have altered the outcome of the proceedings? Terrell established that the
proof of the omissions made by Affiant's false testimony were contrary to the location Affiant
documented in his arrest warrant affidavit. However, the unknown third officer's statement that he
found the plastic bag and presented it to Affiant would have been material and proof that Affiant's
warrant affidavit stating: (4) Affiant observed that Sheron Terrell raised his arm and threw a small object
out of his right hand...Affiant walked back approximately four feet where Affiant observed Sheron
Terrell raising his arm up and throwing an object on the ground. (5) Affiant observed a small clear plastic
bag containing two small beige rocks; was in fact known falsehoods and a disregard for the truth. The
unknown third officer, could reasonably be taken to put the whole case in a different light so as to
undermine confidence in the verdict. Kyles, 514 US at 434-S5,115 SCT at 1566.
In the event that at the hearing the allegation of perjury or reckless disregard is established by
Terrell by a preponderance of the evidence, and, with the affidavit's false material set to one side, the
affidavit's remaining content is insufficient to establish probable cause, the arrest warrant must be
voided and the fruits of the arrest excluded to the same extent as if probable cause was lacking on the
face of the affidavit. Id Franks, 438 US at 155-156.
However, in Terrell's State Habeas proceedings, trial counsel submitted an affidavit stating: "I
reviewed the entire offense report produced to me. I saw no indication in the report that there was a
third officer involved. Prior to trial there was a hearing on a motion to suppress evidence at which both
officer Mustafa and Terrell testified and were cross examined. Officer Mustafa denied the presence of a
third officer".
In counsel's opinion, 'he conducted an investigation sufficient to satisfy himself that further
inquiry into the possibility of a third officer who might have planted contraband in order to build a case
against Terrell would have been a fruitless investigation'.

13-

Thereafter, the Habeas court found that the representations contained in trial counsel's affidavit
correct and credible; and the outcome of the proceedings wouldn't have been different but for
counsel's alleged error. However, the state Habeas court assessment that trial counsel's affidavit was
correct and credible on the issue of 'officer Mustafa denying the presence of a third officer' are wrong
by clear and convincing evidence.
H. Mustafa testified of an unknown third officer arriving at the scene:
H. Mustafa direct examination by Jon Hall.
Q. And did any other units arrive?
A. I believe two other units showed up.
Q. And do you know who those officers were?
A. I believe one was sergeant Mitchell, and I don't recall who was the other officer.
Q. Okay. And did they arrive in two separate units?
A. Yes, sir.
Q. Were they marked patrol units?
A. Yes, sir.
R.R. Vol. 2, page 22.
H. Mustafa cross examination by Robert Coltzer.
Q. And who arrived first?
A. To the best of my knowledge, as I remember, I think it was Sgt. Mitchell who arrived first. But the
other unit had arrived next to him.
& But you don't remember that officer's name?
A. No, sir.
Q. How long was it before that officer arrived?
A. I would say a minute or two maybe.
Q. You found it?
A. Yes, sir.
Q. The other, the third officer didn't find it?
A. No, sir.
R.R. Vol. 2, page 32-35.
Terrell filed a motion for discovery in his state Habeas Corpus proceedings. However, the state

4

V

Habeas Court arbitrarily denied Terrell a fair opportunity to discover the third officer? Clearly,
the state's fact-finding procedures which lead up to the state court's summary denial of Habeas relief
"resulted in a decision that was based on an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding"; because Terrell never had a fair chance in State
Habeas Court to have the relevant facts heard and determined- where those facts, accepted as true,
satisfied the basic requirements for relief.
In addition, the State Habeas Court crediting trial counsel's affidavit on the issue of 'him
conducting an investigation sufficient to satisfy himself that further inquiry into the possibility of a third
officer who might have planted contraband in order to build a case against Terrell would have been a
fruitless Investigation'; was contrary to, or involved an unreasonable application of clearly established
federal law as determined by the Supreme Court in Strickland v. Washington, 466 US 668,691 (1984).
William v. Taylor, 529 US 362,413 (2000); 28 USC § 2254 (d)(1).
The district court's assessment that trial counsel adequately addressed issues from Terrell's pro
se motion by cross examining Affiant on the role of third officer who arrived late the scene, contradicts
trial counsel's affidavit that 'Affiant denied the presence of a third officer'. Trial counsel was put on
notice by Terrell of the unknown third officer, but the unknown third officer was also confirmed by
Affiant at the suppression hearing. Trial counsel had a responsibility to investigate the unknown third
officer. At the very least, trial counsel could have requested a continuance to secure the unknown third
officer witness testimony because: Terrell stated specifically what the investigation would have
revealed? What specific evidence would have been disclosed? And, how the evidence would have
altered the outcome of the proceedings? Terrell established this in his pro se motions and in his
testimony.
However, the district court stated in its opinion, Terrell provides no specific facts demonstrating
that the third officer's presence would have benefited his defense or supported his theory that the third
officer planted evidence against him. This is wrong by clear and convincing evidence. First of all, Terrell
made a statement that 'Affiant made false statements knowingly and intentionally or with reckless
disregard for the truth, by stating that he found a plastic bag containing beige rocks 4 feet from where
he detained Terrell, when in fact they were found 15-20 minutes after Terrell had been detained by an
unknown third officer at the scene of the detention. Clearly, this statement suffices for an adequate

15.

demonstration of, how the third officer is material to Terrell's defense. 28 USC^ 2254 (e)(1).
Second, Terrell never stated nowhere in the record that the third officer planted evidence
against him. Terrell only statement was that 'after the unknown third officer exited his patrol car, "he
said" he found the evidence of the ground and gave it to Affiant'. Clearly, the district court has credited
trial counsel's affidavit when trial counsel stated: "further inquiry into the possibility of a third officer
who might have planted contraband in order to build a case against Terrell would have been a fruitless
investigation". The District Court assertions that suggest Terrell claims that the unknown third officer
planted evidence against him is not found on the record from Terrell.
However, it is unreasonable for the District Court to not see why the concealment of the third
officer and not questioning his involvement in the incident violates Terrell's Due Process rights. 28 USC S
2254 (e)(1). The deliberate concealment of a named eyewitness whose testimony would admittedly be
material constitutes a prima facie deprivation of Due Process. Clark v. Blackburn, 632 F2d. 531 (5th
Circuit 1980); Freeman v. Georgia, 599 F2d. 65 (5th Circuit 1979); Lockett v. Blackburn, 571 F2d. 309 (5th
Circuit 1978), cert, denied, 439 U.S. 873,99 S.CT. 207,58 LED 2d 186. (negligent concealment of a
witness theory)
The 5th Circuit COA assessment that Terrell has not shown that reasonable jurists would find the
District Court's deference to the State Court's rejection of Terrell's claim of counsel failing to investigate
was debatable or wrong, are wrong by clear and convincing evidence. Trial counsel's deficiency to
investigate the third officer who was the sole and only person that could clear Terrell from fault, was
contrary to, or involved an unreasonable application of clearly established federal law. 28 USC S 2254
(d)(1). The 5th Circuit COA erred when it failed to decide that the District Court abused its discretion in
not investigating the third officer because Terrell shown that his petition should have been resolved in a
different manner or that the issues presented were adequate to deserve encouragement to proceed
further. Slack v. McDaniel, 529 US 473,483-84 (2000); 28 USCf 2254 (c);(e)(l).

Failed to challenge "no neutral and detached magistrate" of warrant
First, it is the function of a magistrate to determine the reliability of the information and
credibility of an affiant in deciding whether the requirement of probable cause has been met. in
Shadwich v. City of Tampa, 407 US 345,92 SCT. 2119,32 Led 2d 783 (1972) the court held, "someone

F

\

Independent of police and prosecution must determine probable cause for issuance of warrant". The
warrant traditionally has represented an independent assurance that a search and arrest will not
proceed without probable cause to believe that a crime has been committed and that the person named
in the warrant is involved in the crime. Thus, an issuing magistrate must meet two tests: he must be
neutral and detached; and, he must be capable of determining whether probable cause exists for the
requested arrest and search.
The United States Supreme Court in Johnson v. United States, 333 US 10,13-14 (1948); Jones vs.
United States, 362 US 257,270-71,80 SCT. 725,735-36,4Led 2d 697 (I960); and Giordenllo v. United
States, 357 US 480,485- 86(1958), insisted that inferences of probable cause be drawn by 'a neutral and
detached magistrate instead of being judged by the officer engaged in the often competitive enterprise
of ferreting out crime'.
In Gertain v. Pugh, 420 US 103,43 Led 2d 54,95 SCT. 854 (1975), the context of a challenge to
the pretrial detainment of persons suspected of criminal acts, the court held that "states must provide a
fair and reliable determination of probable cause as a condition for any significant pretrial restraint of
liberty", and required that "this determination must be made by a judicial officer either before or
promptly after arrest". Id at 125,43 Led 2d 54,95 SCT. 854; Franks vs. Delaware, 438 US at 681(a
magistrate's determination is presently subject to review before trial as to sufficiency without any
undue interference with the dignity of the magistrate's function).
In reviewing the district court's determination that 'a magistrate determined probable cause',
this court is not limited to the "clearly erroneous" standard and may make an independent review of the
sufficiency of an affidavit. 2254 (f); United States v. Phillips, 727 F. 2d 392, 394-95 (5th Cir. 1984). In
Illinois v. Gates, 462 US 213,103 SCT. 2317,76 Led 2d 527 (1983), the Supreme Court adopted the
"totality of the circumstances" test for determining whether a search warrant is supported by probable
cause. Under Gates:
The task of the issuing magistrate is simply to make a practical, common-sense decision
whether, given all the circumstances set forth in the affidavit before him, including the
"veracity" and "basis of knowledge" of the persons supplying hearsay information, there is a
fair probability that contraband or evidence of a crime will be found in a particular place. And
the duty of a reviewing court is simply to ensure that the magistrate had a 'substantial basis

IT.

If

1

/•

i'

i

u

)

;

r

•J-

•-

■-J

}.

;

)
;

1.'.
{

i

‘v-:
I

;

W

\.
r

V.

:
:

%

7

V

K
.j

-V

;

:

5.

«T.

i-.

*•!>

l

V

i ■

.1

>

■y

;
r.

•i.

!

y

i,

:

•S'

!

t ; r

!

■ :

-i;'

i

;

■4

;;»

■n

j

u
I

!

A.

x

/
t

:

i

.'t

r'

;

<.

:

for... concluding" that probable cause existed".
462 US at 239-40,103 SCT. at 2332-33 (citing Jones v. United States, 362 US 257,271,80 SCT. 725,736,
4 Led 2d 697 (1980). Although Gates dealt with the issue of whether a search warrant was properly
issued, it has been applied to cases involving arrest warrants as well. See, e.g., United States vs. Jackson,
818 F2d 345 (5th Cir. 1987).
Terrell offered as proof in his pro se motion- the warrant affidavit failed to meet the
Constitutional standards of a 'neutral and detached' magistrate. The undersigned authority on page #2
(name illegible #400) of Terrell's warrant affidavit, is in fact a sworn peace officer in violation of the
neutral and detached requirement. Coolidge v. New Hampshire, 403 US 443,449 (1971) (warrant
affidavit invalid because not issued by a neutral and detached magistrate). Nathanson v. United States,
290 US 41,47(1933); Aguilar v. Texas, 378 US 108,114-15(1964) ("No warrants shall issue, but upon
probable cause, supported by oath or affirmation...") see: Motion to dismiss on the basis of illegal
charging instrument, pro se.
However, in Terrell's State Habeas proceedings, trial counsel submitted an affidavit stating
"Terrell's probable cause affidavit was accepted and approved by a magistrate". Thereafter, the Habeas
Court found that the representations contained in trial counsel's affidavit correct and credible; and the
outcome of the proceedings wouldn't have been different but for counsel's alleged error. The State
Habeas Court assessment that trial counsel's affidavit was correct and credible are wrong by clear and
convincing evidence. 28 USC^ 2254 (e)(1).
Terrell made a substantial preliminary showing that the warrant affidavit 'on its face' clearly
displays a sworn peace officer accepting and approving that probable cause existed in violation of the
'neutral and detached' requirement. Terrell in his state criminal prosecution made a challenge to the
legal sufficiency of his arrest warrant affidavit in a motion to suppress; and motion to dismiss based on
an illegal charging instrument, pro se, filed six months prior to his trial. Terrell's motions stated the
grounds upon which they were made set by the standards of the United States Supreme Court. See: 28
USC ^ 2254(f); (e)(1).
However, trial counsel deliberately disregarded to advocate Terrell's cause of action to squash
the arrest warrant affidavit by failing to submit the arrest warrant affidavit into the pretrial hearing
record on the basis that the arrest warrant affidavit was in fact legally insufficient. There was no

1$,

determination whatsoever of probable cause or a valid signature of a neutral and detached magistrate.
Therefore, Terrell was arbitrarily deprived of his Due Process and Substantive rights under the United
States Constitution based on the ineffective assistance of trial counsel.
Terrell diligently developed the factual basis of his 'neutral and detached' claim in state court.
Terrell made a prima facie showing of what specifically he intended to prove. It is clear and convincing
evidence, Terrell established a factual dispute alleging that Terrell's warrant affidavit was in violation of
the neutral and detached requirement creating a challenge to the issuance of Affiant's warrant affidavit.
When there is a "factual dispute, that, if resolved in petitioner's favor, would entitle him to relief
and the state has not afforded the petitioner a full and fair hearing," a federal habeas court petitioner is
entitled to discovery and an evidentiary hearing. Ward v. Whitely, 21 F3d. 1355,1367 (5th Circuit 1994),
cert denied, - US —, 115 SCT. 1257,131 Led 2d 137 (1995). However, the discovery and evidentiary
hearing are limited to the factual dispute; the court has made clear that 28 USC S 2254, rule 6, "does
not authorize fishing expeditions". Ward, 21 F3d. at 1367. A Habeas Petitioner must make specific
allegations, "conclusory allegations unsupported by specifics," or "contentions that in the face of the
record are wholly incredible" will not entitle one to discovery or a hearing. Blacklegde v. Allison, 431 US
63,74, 97 SCT. 1621,1629,52 Led 2d 136 (1977).
Terrell's State Habeas Court proceedings resulted in a decision that was based on an
unreasonable determination of the facts in the light of the evidence submitted by Terrell in the state
court proceedings. In addition, the proceedings resulted in a decision that was contrary to clearly
established Federal law, of a neutral and detached magistrate, as determined by the Supreme Court of
the United States. 28 USC ^ 2254 (d)(l)(2).
Furthermore, the District Court's assessment that trial counsel 'litigated issues from Terrell's pro
se motion at the pretrial proceedings' are wrong by clear and convincing evidence. Trial counsel
suppressed the warrant affidavit from the record, failed to place any responsibility on the State for its
failure to comply with the neutral and detached requirement, failed to challenge the false statements in
Affiant's warrant affidavit, failed to investigate the third officer, failed to object to false testimony, and
failed to request a continuance; counsel was not functioning as counsel should. Kimmelman v. Morrison,
477 US 365 (1986).
The 5th Circuit COA assessment that Terrell has not shown that reasonable jurists would find the

. R.

District Court's application of Stone was debatable or wrong, are wrong by clear and convincing
evidence. Terrell never had a full and fair opportunity at his pretrial hearing or State Habeas Corpus
because the state failed to accept as true Terrell's factual allegations in his petition; that were neither
incredible on its face nor clearly refuted by the record. The 5th Circuit COA erred when it failed to decide
that the District Court abused its discretion in not conducting a Franks Evidentiary Hearing because
Terrell shown that his petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further. Slack v. McDaniel, 529 US 473,
483-84 (200); 28 USC|2254 (c);(e)(l).

Right to compulsory process
The sixth amendment right to compulsory process of witnesses is applicable to the states
through the fourteenth amendment. Washington v. Texas, 388 U.S. 14,87 S.CT. 1920,18 Led 2d 1019
(1967). There are limits, however, to the defendant's right to use the state's process to compel the
attendance of witnesses. In Washington the Supreme Court based its holding on the fact that the state
arbitrarily denied the petitioner the right to call a witness "who was physically and mentally capable of
testifying to events that he had personally observed, and whose testimony would have been relevant
and material to the defense". 388 U.S. at 23,87 S. CT. at 1925 (emphasis added); (Quoting Ashley v.
Wainwright, 639 F2d 258 (5th Circuit 1981)).
In this case Terrell demonstrated how the unknown third officer's testimony would have been
beneficial, relevant and material to the defense. Terrell's defense to the charges were that Affiant did
not walk back approximately 4 feet and find a small clear plastic bag minutes after Terrell's detention.
But, the unknown third officer found the plastic bag 15-20 minutes after Terrell had been detained and
gave it to Affiant.
The trial court, the prosecutor, and trial counsel was personally aware of the unknown third
officer's involvement via Terrell's written motions, pro se and Terrell's testimony. However, they
deliberately concealed this witness from Terrell and didn't want his information to be documented on
record. (The state includes prosecutor and employees of his office; members of law enforcement
connected to the investigation and prosecution of the case. United States v. Agurs, 427 US 97 (1976)). In

olP\

I

i

\

United States v. Bagley, the court held, that regardless of the request (the "specific request" and
"general or no request" situations) favorable evidence, is material, and constitutional error results from
its suppression by the government, "if there is a reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding would have been different" 473 US at 682. If the
unknown third officer was disclosed and questioned, the court would have known that Affiant did not
walk back 4 feet and find a plastic bag after Terrell's immediate detention. In Brady v. Maryland, the
court held, "the suppression by the prosecution of evidence favorable to an accused upon request
violates Due Process where the evidence is material either to guilt or to punishment, irrespective of
good or bad faith of the prosecution" 373 at 87.
The unknown third officer would have impeached the general credibility of Affiant- that Affiant
did not walk back 4 feet, after Terrell's immediate detention, and find the contraband on the ground.
The unknown third officer would have also cleared Terrell of fault concerning Affiant's allegations. This
testimony would have corroborated Terrell's defense. It is reasonably possible that the outcome of the
proceeding would had been different had the prosecution made a disclosure of the information
contained from this witness. A reasonable probability of a different result is accordingly shown when the
Government's evidentiary suppression undermines confidence in the outcome of the proceedings. Kyles
v. Whitley, 514 US 419 (1995). Terrell demonstrated a "colorable need" in State court for an
investigation of the third officer's testimony, so as to invoke the sixth amendment right to compulsory
process and Due Process. A reasonable probability that had the evidence been disclosed to the defense,
the result of the proceeding would have been different, necessarily entails the conclusion that the
suppression must have had, 'substantial and injuries effect or influence in determining the jury verdict".
Kotteakos, 328 US, at 776,66 SCT., at 1253; Brecht v. Abrahamson, 507 US 619 (1993).
However, in Terrell's State Habeas Court proceedings, the Habeas Court failed to answer
Terrell's allegation on his right to compulsory process of this witness.
However, the District Court's assessment that Terrell claims that, "the third officer planted drugs
at the scene of the arrest", are wrong by clear and convincing evidence. The District Court has arbitrarily
credited trial counsel's affidavit when he stated: 'he conducted an investigation sufficient to satisfy
himself that further inquiry into the possibility of a third officer who might have planted contraband in
order to build a case against Terrell would have been a fruitless investigation'.

34.

The 5th Circuit COA assessment that Terrell has not shown that reasonable jurists would find the
District Court's deference to the State Court's rejection of Terrell's claim of his right to compulsory
process was debatable or wrong, are wrong by clear and convincing evidence. The 5th Circuit COA erred
when it failed to review the District Court's findings of fact for clear error and review it conclusions of
law de novo; because Terrell has shown that his petition should have been resolved in a different
manner or that the issues presented were adequate to deserve encouragement to proceed further.
Slack v McDaniel, 529 US 473,483-84 (200); 28 USC § 2254 (c);(e)(l).

Prosecutor Misconduct
The state prosecution introduced testimony by Affiant that they
knew was false, did not correct it and was material.
H. Mustafa direct examination by Jon Hall
Affiant testified: "On the night of June 18, 2011, Affiant was parked east on avenue K., mid-block
between 26th and 27th street. Affiant was standing beside his patrol car in the street, about thirty feet
from the intersection of 27th street and avenue K. (Jon Hall's courtroom distance example). When Affiant
observed Terrell and an unknown white male make a hand to hand transaction on the northeast
intersection of 27th street and avenue K. Thereafter, Terrell walked south up 27th street and the
unknown white male walked in a different direction".
R.R. Vol. 2, page 6.
R.R. Vol. 5, page 18-22
"Affiant got in his patrol car and turned around, making a U-turn, now going west on avenue K.
When Affiant approached the intersection of 27th street and avenue K, Affiant turned left driving south
up 27th street to follow Terrell".
R.R. Vol. 2, page 15-22.
R.R. Vol. 5, page 46-49.
"It is established that a conviction obtained through the use of false evidence, known to be such
by representatives of the state, must fall under the IVX Amendment... the same result obtains when the
state, although not soliciting false evidence, allows it to go uncorrected when it appears". United States
v. O' Keefe, 128 F3d 885, 893 (5th Circuit 1997) (Quoting Napue v. Illonois, 360 US 264269 (1959). To
establish a Due Process violation based on the Government's use of false or misleading testimony,

2a.

defendant must show that (1) The testimony in question was actually false, (2) The testimony was
material; and (3) The prosecution had knowledge that the testimony was false. Id at 893 (citing United
States v. Blackburn, 9 F3d 3S3,357 (5th Circuit 1993).
Affiant presented in the state court record, critical information that was omitted in his warrant
affidavit. This omitted information is clearly critical to, where was Affiant located when he supposedly
observed a hand to hand transaction? Affiant's warrant affidavit omits any information of Affiant being
parked, standing outside his patrol car at that specific location. Affiant's affidavit only documented
"Affiant patrolling the area of 27th street and avenue J" see: warrant affidavit #2. However, Affiant failed
to mention this location at any time in his testimony at the pretrial hearing stage or at trial. Mooney v.
Holohan, 294 US 103(1935).
In United States v. Agurs, 427 US at 103,104, the court noted that "a conviction obtained by the
knowing use of perjured testimony is fundamentally unfair, and must be set aside if there is any
reasonable likelihood that the false testimony could have affected the judgment of the jury". Brady v.
Maryland, 373 US 83 (1963).
At Terrell's trial during deliberation, the jury sent a note communicating to the court." Want to
see a copy of the police report. 3/27/12 2:19 PM. Judge's response: The police report is not in evidence.
Mr. Hall: I agree with that Judge. Mr. Coltzer: I wish it was in evidence, but I don't believe it is.
R.RVol.5 page 134
It is clear and convincing evidence, there is a reasonable likelihood that the false testimony
affected the judgment of the jury. In addition to, the trial court and trial counsel intentionally and
deliberately suppressed the warrant affidavit from the record.
Once the facts are developed as to, where was Affiant located? And, a showing is established as
to, how did Affiant turn around when he was following Terrell? Would shed light on, why would Terrell
make a drug transaction in front of Affiant, wait until Affiant came back 3 34 blocks, got out of his patrol
car and then run behind a parked car and throw something out of his hands? The warrant affidavit is
substantial evidence that 'Affiant was patrolling at 27th street and avenue J' when he first saw Terrell
located at '27th street and avenue K'. Affiant was never parked, standing beside his patrol car between
26th-27th street and avenue K.
However, in Terrell's State Habeas Court proceedings, the court failed to answer Terrell's

a4.

allegation on the State prosecution soliciting false testimony from Affiant.
However, the District Court assessment that" Terrell presents no facts supporting his claim that
the prosecutors knew that Affiant's testimony was false", are wrong by clear and convincing evidence.
Terrell has personally filed pro se motions in the court several months after he was incarcerated
explaining Affiant was a liar. Terrell also explained to the court that Affiant was not parked mid-block
between 26-27^ street, standing beside his patrol car. But, Affiant was travelling south from 1000 block
of 27th street to 27th street and avenue K. Affiant warrant affidavit collaborated Terrell's version of
events, not Affiant's false testimony. It is clear and convincing evidence, the prosecutors knew that
Affiant's warrant affidavit stated, "Affiant was patrolling the 1000 block of 27th street".
The 5th Circuit COA Assessment that Terrell has not shown that reasonable jurists would find the
District Court's application of Stone was debatable or wrong, are wrong by clear and convincing
evidence. Terrell made... Due Process was violated when the prosecutor knew Affiant's warrant affidavit
stated he was located on the 1000 block of 27th street; not parked mid-block between 26th-27th street,
standing beside his patrol car. The 5th Circuit decision is clearly erroneous when it failed to review the
District court's findings of fact for clear error and review its conclusions of law de novo: because Terrell
has shown that his petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further. Slack v. McDaniel, 529 US 47S,
483-84 (200); 28 USC j 2254 (c);(e)(l).

Ineffective Assistance of Counsel
Trial Stage
The State's opening argument: "Affiant was parked east on avenue K, mid-block between 26th27th street, standing beside his patrol car, watching suspicious activity in this high narcotic trafficking
area. The reason why he was parked at this specific location was to watch 1105 27th street- a known
drug trafficking area. When Affiant observed Terrell and the unknown white male make a hand to hand
transaction on the northeast corner intersection of 27th street and avenue. K. Thereafter, Terrell walked
south up 27th street and the unknown white male walked in a different direction. Affiant then entered

SJf,

his patrol car and turned around, making a U-turn on avenue. K- now going west on avenue. K. When
Affiant approached the intersection of 27th street and avenue K, Affiant turned left, now driving South
on 27th street to follow Terrell".
R.R. Vol. 5, page 14-15; 18-22; 41.
Trial counsel questioned Affiant concerning, Did Affiant have this information documented in his
report? Affiant replied, no. However, trial counsel failed to include into evidence Affiant's warrant
affidavit to show to the jury the discrepancies in his testimony, as to, where he was actually located?
R.R. Vol. 5, page 42-43.
During Terrell's deliberation, the jury submitted a note to the court requesting to see a copy of
the police report. 3/27/12,2:19 PM. The judge's response was: the police report is not in evidence.
Please continue to deliberate. Mr. Hall: I agree with that Judge. Mr. Coltzer: I wish it was in evidence,
but I don't believe it is.
R.R. Vol. 5, page 134.
The false testimony of Affiant's whereabouts was material to Terrell's defense; Kotteakos v.
United States, 328 US 750,776,66 SCT1239,1253, 90 LED 1557 (1946) (whether the violation had a
substantial and injuries effect or influence in determining the jury's verdict) that's why the court
deliberately excluded it.
It is clear and convincing evidence, trial counsel's performance was deficient when he failed to
object to the false testimony, or failed to impeach Affiant with his warrant affidavit at trial. It is
reasonably probable that had counsel displayed the warrant affidavit to the jury, they would have
discredited Affiant's make belief story about being parked in the neighborhood watching suspicious
activity, etc. The question is not whether Terrell would more likely than not have received a different
verdict with the evidence, but whether in its absence Terrell received a fair trial, understood as a trial
resulting in a verdict worthy of confidence. Trial counsel's evidentiary suppression undermines
confidence in the outcome of the trial, in addition, the result of the proceeding would have been
different because it was evident that Affiant passed Terrell and circled around the block to meet Terrell
again on 27th street. Trial counsel's error was so serious as to deprive Terrell of a fair trial. Strickland v.
Washington, 466 US 668 (1984).
Furthermore, trial counsel performance was deficient when he failed to investigate the third

as\

officer because Terrell stated specifically: 1. What the investigation would have revealed? 2. What
specific evidence would have been disclosed? And, 3. How the evidence would have altered the
outcome of the proceedings? However, counsel limited his pretrial investigation to only discussions with
Terrell, review of the indictment, examination of the prosecution's file, reading the police report, and
taken several pictures of 27th street.
Trial counsel affidavit further states: "At trial the defendant testified about a third officer, so the
jury was aware of that theory. I did not find anything to suggest that any particular Galveston Police
officer, or the Galveston Police Department in general, would have any reason to "plant" contraband on
Terrell in order to pursue a criminal case."
Courts recognize that "ineffectiveness is generally clear in context of a complete failure to
investigate because counsel can hardly be said to have made a strategic choice against pursuing a
certain line of investigation when he has not yet obtained the facts on which such decision could be
made" (citing Strickland, 466 US at 690-91). Strickland simply "does not require... deference to decisions
that are uninformed by an adequate investigation into the controlling facts and law" United States v.
Drones, 218 F3d 496,500 (5th Circuit 2000).
However, because Affiant was granted access to stay in the courtroom after he testified at the
suppression hearing, so that he could hear Terrell's testimony, Affiant changed his testimony at trial that
the third officer was summoned for a drug testing kit.
H. Mustafa testified of how the unknown third officer was involvement:
H. Mustafa direct examination by Jon Hall.
Q. After you recovered the item, the drugs..., did you stay at the scene for some time?
A. I stayed at the scene a little bit.
Q. And why would you remain at the scene?
A. Because I wanted to field test the item that I recovered.
Q. So you said you wanted to do a field test. Did you have a field test with you?
A. On that night I didn't.
Q. Did you have to wait for someone to bring you a field test?
A. Yes, sir.
Q. And did another officer bring a test?

Ole,

■

A. Yes, sir.
R.R. Vol. 5, page 39-40
H. Mustafa cross examination by Robert Coltzer
Q. Who was the officer that came up in response to your call with the testing kit?
A. I don't remember.
Q. You didn't have his name in you report, did you?
A. No, sir.
R.R Vol. 5, page 42.
However, at the suppression hearing Officer H. Mustafa did testify of having a drug testing kit
available.
H. Mustafa direct examination by Jon Hall.
Q. Okay. Did you have a field test kit available to test it?
A. Yes, sir.
R.R Vol. 2, page 23-24.
There is a reasonable probability that but for counsel's failure to investigate and call the third
officer to testify, instead of assuming what part he played in the incident, the result of the proceeding
would have been different. Trial counsel's evidentiary suppression to investigate any officer from the
Galveston Police Department undermines confidence in the outcome of the trial and establishes
prejudice. Trial counsel's error was so serious as to deprive Terrell of a fair trial. Strickland v.
Washington, 466 US 668 (1984).
Trial counsel performance was also deficient when he failed to argue to the jury that there was
no probable cause determination made by a neutral and detached magistrate.
Terrell was deprived of his Due process when counsel's failed to render adequate legal
assistance, when the state failed to correct Affiant's false testimony, and when the state failed to secure
attendance of the third officer witness.

SCI.

Ineffective Assistance of Counsel
Appeal
Terrell's Appellate Attorney, Calvin Parks, professional evaluation of the record was objectively
unreasonable due to his deficient performance to raise any arguable grounds on Terrell's Direct Appeal.
Appellate Counsels' overview of Terrell's unlawful detention failed to review Terrell's probable Cause
Affidavit. The warrant affidavit, page 2, is void without any magistrate's signature in violation of the
neutral and detached requirement. Shadwich v. City of Tampa, 407 US 345,92 SCT. 2119, 32 Led 2d 783
(1972) the court held, "someone independent of police and prosecution must determine probable cause
for issuance of warrant". Appellate Counsel could have argued Terrell's warrant affidavit was legally
insufficient on Terrell's Direct Appeal, however, he ignored the facts and the law and filed an Anders
Brief.
Appellate Counsels' overview of Terrell's Suppression Hearing, failed to review the facts and the
law concerning the record. Terrell's challenged the warrant affidavit on the ground that it contained
known falsehoods and a disregard for the truth that was consolidated at Terrell's motion to Suppress
Hearing. Terrell made a substantial preliminary showing of falsity in the warrant affidavit. First, that
Affiant warrant affidavit omitted any facts of Affiant being parked east on avenue K, mid-block between
26th-27th street, standing beside his patrol car, watching suspicious activity in this high narcotic
trafficking area. Second, the state never produced the third officer when Terrell demonstrated how the
unknown third officer's testimony would have been beneficial, relevant and material to the defense.
Therefore, since the trial court denied to suppress the false statements in the suppression hearing; the
trial courts' decision was appealable. However, Appellate Counsel ignored the facts and the law and
filed an Anders Brief.
Appellate Counsel's overview of trial counsel's performance during pretrial and trial was also
deficient. First, trial counsel failed to establish any grounds to quash the illegal warrant affidavit. Second,
trial counsel's consolidation of the suppression motions' did not provide any significant values of a
Franks Evidentiary Hearing. Third, trial counsel failed to investigate the third officer and call him as a
witness. Finally, trial counsel also failed to object or impeach Affiant with his warrant affidavit.
In addition, Appellate Counsel could have also filed against the State for their cover-up to

conceal the third officer from attending trial and failing to correct Affiant's false testimony. It is clear
and convincing that counsel didn't want to fight against the State for the defendant which caused
prejudice to Terrell's Direct Appeal.
Terrell's second Appellate counsel, James Ducote was also deficient. In addition to, Mr. Parks
errors, Appellate counsel filed a frivolous argument requesting a Daubert/Kelly Hearing. Clearly since
Terrell's Frank Evidentiary challenge was preserved on the record, it would have been reasonable for
counsel to argue those issues on appeal. Especially since the 1st District Court of Appeals explained to
Mr. Ducote the Daubert/Kelly Hearing was not preserved for the appeal. It is clear and convincing that
counsel didn't want to fight against the State for the defendant which caused prejudice to Terrell's
Direct Appeal. Strickland v. Washington. 466 US 668 (1984); Evitts v. Lucey, 469 US 387 (1985) (right to
effective assistance of counsel applies on a appeal as of right).

33.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

U5, *Lo£l

